No.
IN THE SUPREME COURT OF THE UNITED STATES
Timothy James Dimmer,
Petitioner,
v.
Contractors’ State License Board et al.,
Respondents.

Certificate of Word Count (Rule 33.2(b))

I certify that, according to the computer program used to prepare this
brief, the Petition For Writ of Certiorari contains 5,633 words, not
including the cover, the Tables of Contents and Authorities, this certificate,
and the signature block.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.

James Duifnfier
Tim<
Appellant in Pro Per

RECEIVED
JUN - 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

